No.

20-53
IN THE
SUPREME COURT OF THE UNITEDjS

I-).,-J. sr-hto-,U-y<L

— PETITIOI* ETT

FILED
JUL 1 0 2020

(Your Name)
VS.

OFFICE OF THE CLERK
i n— i
I ov-il
SUPREME
COURT U S

^^

J&iger

|

HQJ>— respondent(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

V,

CovrTrf

'S/X

It 'Par tkz 5‘ev&rih C\reviV

(NAME OF COURT THAT LAST RULED'ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

&>0H J.
(Address)

TL
(City, State, Zip Code)

IV HU 71/Z
(Phone Number)

RECEIVED
JUL 2 1 2020
iuplREMEFco[mTLnFy

QUESTION(S) PRESENTED

A <w\ JT
>]

•£

of

lh

ha

Morh ey

/’Jmg A cirri action -fdr

r,U

Poe.5

'h)

us n UU, C

if 7_

H's

I1& f

US. C ■ | IW> Hus tf/,w
Ha

ti-eef

<7^

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

frymk H,

K imb&ly

Any J 5, T Bvt^

Fox***-

UaVik P

hyA rt/fr M, Vf

B. ore-tvhCT^

Y SouM tY~
RELATED CASES

Ik "Hi * t\ra,\ Court (,{ c6ol[ covnfy , i lLiMOlJ

... T...„
TH-ia-vo T^m
'co^p\&;nt4 , I/f-Q&G'-JJl TH-UC-3z*t TN-C6&->27
U^‘'M5fafeS p/5fr,'cf
CO^Y

£ AS few D/yi

} flortUrt, Plsirlctof lilies

mon

Oh I fed

i:i<f-cv~6i7)5
Court <sf h

§0^4: /T-23^7

Oft* 1

for Tt-e. S^VeYlffi Circuit

Table of contents
37 pages
Opinion below

1

Jurisdiction

2

Constitutional and statutory provisions involved

3

Statement of the case

4-6

Reasons for granting the writ

7

Conclusion

8-9

Appendix
Appendix A (district court)
Amended complaint

10-14

Appendix B (court of appeal)
Writ of mandamus

15-16

Appeal

17-18

Denial motion to proceed in forma pauperis

19-22

Docketing fee paid

23

Opinion of district judge

24

Brief Summary

31-33

Opinion of appeal judge

34-36

Appendix C (state court)
Certified statement of disposition

25-30

Appendix D
Table of authorities cited

37

TABLE OF AUTHORITIES CITED
CASES

U5 Bijhr\ ct CovA ifklorft'trn XilimoiJ
l: H-cv-01713

)5 CoaX of A9?e^5 -tit 5&vevM Circuit
l‘T-O-5 6 7

STATUTES AND RULES

dill fic,V\i

0

f TVA/e HX Section
Tii-k V- section

5 Hi
14u
^r'0ery3'V*7e/n1
l ^ ^vn&yd, vj<ej>j~

OTHER

i5c

|/f(e

PAGE NUMBER

COOr« Jy

Ci^co')]- Ccor\c^oooK

dCcflOYl

If '-2‘f
Pj y 151 ov")

1'
t-;o

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[\/For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
to
the petition and is
[t/f reported at ^Y~v<rrtcM tt lev
Ckrh^toM^-for, !'T-6/-027(J
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

i/i
For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
AW-k 2 7^7stir*
was
[ ] No petition for rehearing was timely filed in my case.
[\/a timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
X.~? ^2.6x0
and a copy of the
order denying rehearing appears at Appendix_____ _
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Cor^fi 'h/^low * I

inv'^lyg.rnijnT

to
<3u«tUe5

fU bluSIrpr 6i Ll^ty +0
apr- Po^r-lty,

Article &
P

X An 6/^

nor ^ fyrWd of l&, lt'^1 or frosty
W| H\o{j^r

d<j& froc'tzS o-f lc\ys )

ccrnj^cr\S^i~i^>\

i n VO^sru^e/lt

cc^pUnf- opc!e^ ft*. cm I Rijhfs Acf" f'/f/fr "/Z Unliti
Colt

j&cHovn

l*1 £3

l?\8'8' Cb)

Page | 1

Supreme Court of the United States
Jared Stubblefield

VS
Chicago police officer
Michael Seiser badge #4615
Cook County of Illinois States Attorney
Kimberly M. Foxx
Cook county circuit judge
Andrea M. Webber cook county judge
District judge of northern District of Illinois
Matthew F. Kennelly District judge
United states court of appeal for the 7th circuit
Judge Frank H. Easterbrook
Judge Amy J. S.T. Eve
Judge David F. Hamilton
Judge Michael B. Brennan
Judge Michael Y. Scudder
writ of certiorari
I Jared Stubblefield coming as pro sa litiagant file petition of writ of certiorari to united states
supreme court. I Jared Stubblefield had a matter in state court where I won my case in trial. In
this matter I was not allowed equal protection under the law of United States Constitution. So I
filed a case in 7 district court of northern district of Illinois, which I filed civil action for
deprivation of rights 42 U.S.C. § 1983. So while filing I only wanted to receive an attorney’s fee
for defending the matter proceedings in vindication of civil right 42 U.S.C. § 1988(b). The lower
courts did not recognize my argument. In 42 U.S.C. § 1988 (b) it clearly states in proceeding to
enforce a provision of section 1983 of 42 title, that the court may allow the prevailing party an
attorney’s fee.

Page | 2

Supreme Court of the United States
Jared Stubblefield

VS

Chicago police officer
Michael Seiser badge #4615
Cook County of Dlinois States Attorney
Kimberly M. Foxx
Cook county circuit judge
Andrea M. Webber cook county judge
District judge of northern District of illinois
Matthew F. Kennedy District judge
United states court of appeal for the 7th circuit
Judge Frank H. Easterbrook
Judge Amy J. S.T. Eve
Judge David F. Hamilton
Judge Michael B. Brennan
Judge Michael Y. Scudder
Complaint
I Jared Stubblefield filing a complaint as pro se litigant. I ask the court grant my petition. In the
circuit court of cook county of illinios I was sue by Michael Seiser badge #4615 of Chicago
police department. I defended myself as pro se litigant. While proceeding in this matter I was not
allowed to file anything in the clerk’s office or in the court room. I went to trial and still won in
the matter. For my time and energy for defending myself I asked for an attorney’s fee for
defending myself. I was deprived of my liberty.
To retrieve my attoney’s fee I filed civil suit under civil rights act title 42 section 1983 civil
action for deprivation of rights in the United States district court of northern district of Illinois
eastern division. In this United States Code it states, (Every person who, under color of anv
statute, ordinance, regulation, custom, or usage, of any State or Territory or the District of
Columbia, subjects, or causes to be subjected, anv citizen of the United States or other person
within the jurisdiction thereof to the deprivation of anv rights, privileges, or immunities secured
bv the Constitution and laws, shall be liable to the party injured in an action at law, suit in equity.
or other proper proceeding for redress, except that in anv action brought against a judicial officer
for an act or omission taken in such officer’s judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated or declaratory relief was unavailable. For the
purposes of this section, anv Act of Congress applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of Columbia.) in the filing I explained that

Page | 3

United States Code title 42 section 1988 (b) proceedings in vindication of civil rights. In which it
states (In any action or proceeding to enforce a provision of sections 1981. 1981a. 1982.1983.
1985. and 1986 of this title, title IX of Public Law 92-318 120 U.S.C. 1681 et sea.1. the
Religious Freedom Restoration Act of 1993 142 U.S.C. 2000bb et sea.l. the Religious Land Use
and Institutionalized Persons Act of 2000 142 U.S.C. 2000cc et sea.1. title VI of the Civil Rights
Act of 1964 f42 U.S.C. 2000d et seq.1, or section 12361 of title 34. the court, in its discretion.
may allow the prevailing party, other than the United States, a reasonable attorney’s fee as part
of the costs, except that in any action brought against a judicial officer for an act or omission
taken in such officer’s judicial capacity such officer shall not be held liable for any costs.
• including attorney’s fees, unless such action was clearly in excess of such officer’s jurisdiction.!
Which it states clearly about attorney’s fee.
When filed my 42 U.S. Code § 1983. Civil action for deprivation of rights I had received judge
Kennelly as the judge for the case. When I first filed I had the circuit court of cook county of
Illinois, City of Chicago and the states attorney of cook county of Illinois defendants (people of
the state of Dlinois). Judge Kennelly denied my filing saying they are immune and can’t be sued,
so I had to re-amand my complaint putting the officers name who was on my case. Then judge
Kennelly dismissed my case saying that it was frivolous matter.
Then I file a writ of mandamus to the court of appeals asking court to amend my complaint.
Which they denied and they told me to file an appeal in which I did. When filing my appeal I
was not able to afford the filling fee I filed a forma pauperis which judge Amy J. ST Eve and
judge Frank H. Easterbrook denied. I stated in my forma pauperis I had no money and that I
didn’t make any since of April 2019. Luckily, I applied for a credit card to pay for my filing fee.
Which I still haven’t paid back.
Then in review of my filing in the appeals court I was told to right a brief summary, in the brief
summary I wrote in a declarator judgement in my filing from the supreme court reports. In the
supreme court reports 100 volume 1 stated Owens vs City of Independence page 445 (1980).
Which states that liability for “any person” in including “municipal corporations.” Which the 14
amendment states (All persons bom or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal protection of the
laws.) Then the three judges David F. Hamilton, Michael B. Brennan, and Michael Y. Scudder
that sign off on their order that state I invoked a whole other case, as if they never read my brief
summary or my appeal. Also saying that I never summons the defendant in the appeal in which I
did. I only summons Michael Seiser badge #4615 of Chicago police department. In my written
complaint it only states Michael Seiser name.
In proceeding in each court room each judge proceeded as if they are not trying to understand
anything I put in this matter. The judges act as if the constitution of the united states doesn’t
apply. All the judges in this matter acted in form of treason by sedition, not want to be fare. I
believe they caring more about profit of people that so-called serving the people of the united
states more than protecting people’s united states constitution rights.

REASONS FOR GRANTING THE PETITION

T

$rr\

Icv'tr-

Kef
court

fre^/&(7
hod

I ynr)
(

'Hie Hntftd ^Wf-cs- at h^tcA,

(

J lh court
0h

ft

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
C

Date:

cy,)* & if);

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

'Joly

